<html>
<title> - SILICON PRAIRIE: TECH, INNOVATION, AND A HIGH-SKILLED WORKFORCE IN THE HEARTLAND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                FIELD HEARING: KANSAS CITY, KS: SILICON 
    PRAIRIE: TECH, INNOVATION, AND A HIGH-SKILLED WORKFORCE IN THE 
                               HEARTLAND

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 8, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               
                               
            Small Business Committee Document Number 116-049
             Available via the GPO Website: www.govinfo.gov
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-895                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------            
           
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sharice Davids..............................................     1
Hon. Emanuel Cleaver.............................................    10

                               WITNESSES

Mr. David Toland, Secretary, Kansas Department of Commerce, 
  Topeka, KS.....................................................     4
Ms. Delia Garcia, Secretary, Kansas Department of Labor, Topeka, 
  KS.............................................................     6
Mr. Thomas Salisbury, Regional Administrator, Region VII, Small 
  Business Administration, Kansas City, MO.......................     8
Ms. Neelima Parasker, President and CEO, SnapIT Solutions, 
  Overland Park, KS..............................................    18
Mr. Ruben Alonso III, President, AltCap, Kansas City, MO.........    20
Ms. Tammie Wahaus, CEO, Elias Animal Health, Olathe, KS..........    21
Mr. Brad Sandt, President & CEO, Menlo, K12itc, Civic ITC, Kansas 
  City, MO.......................................................    24
Mr. Daniel Silva, President & CEO, Kansas City Kansas Chamber of 
  Commerce, Kansas City, KS......................................    25

                                APPENDIX

Prepared Statements:
    Mr. David Toland, Secretary, Kansas Department of Commerce, 
      Topeka, KS.................................................    33
    Ms. Delia Garcia, Secretary, Kansas Department of Labor, 
      Topeka, KS.................................................    36
    Mr. Thomas Salisbury, Regional Administrator, Region VII, 
      Small Business Administration, Kansas City, MO.............    45
    Ms. Neelima Parasker, President and CEO, SnapIT Solutions, 
      Overland Park, KS..........................................    54
    Mr. Ruben Alonso III, President, AltCap, Kansas City, MO.....    61
    Ms. Tammie Wahaus, CEO, Elias Animal Health, Olathe, KS......    63
    Mr. Brad Sandt, President & CEO, Menlo, K12itc, Civic ITC, 
      Kansas City, MO............................................    67
    Mr. Daniel Silva, President & CEO, Kansas City Kansas Chamber 
      of Commerce, Kansas City, KS...............................    70
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Kansas Economic Report.......................................    72

 
SILICON PRAIRIE: TECH, INNOVATION, AND A HIGH-SKILLED WORKFORCE IN THE 
                               HEARTLAND

                              ----------                              


                        TUESDAY, OCTOBER 8, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., at Dr. 
Thomas R. Burke Technical Education Center, Kansas City 
Community College, 6565 State Ave., Kansas City, KS, Hon. 
Sharice Davids, presiding.
    Present: Representatives Davids and Cleaver.
    Chairwoman DAVIDS. Good morning. The Committee will come to 
order. Thank you all for joining us this morning and a special 
thanks to the witnesses for being here today. I would 
especially like to thank Congressman Emanuel Cleaver who 
represents Missouri's fifth congressional district and serves 
on the Financial Services and Homeland Security Committees. For 
those in attendance, I would like to share some background on 
the proceedings. This is a formal hearing of the House 
Committee on Small Business. Due to the format, there is not an 
opportunity for questions or public comments from the audience. 
I thank you for your attendance and interest in this issue.
    Field hearings play an important role in the work our 
Committee does. Traveling to Washington D.C. and testifying 
before Congress presents numerous barriers in costs and time 
that can prevent some important voices from being heard. Field 
hearings serve to bring the work of the Committee closer to our 
districts and offer our communities the opportunity to share 
their views and issues on the matter. Since I was sworn in at 
the beginning of this year, one of my top priorities has been 
to support the growth of small businesses and entrepreneurship.
    The nearly 30 million small firms in the U.S. represent 
99.7 percent of all employers and generate two-thirds of all 
net new jobs, as we know how important it is to have a thriving 
Main Street and support small firms, especially in our district 
where the entrepreneurial spirit is baked into our DNA. On the 
Small Business Committee, I am working every day to reduce 
burdens for small firms, increase access to capital so that 
entrepreneurs can start and grow small businesses, and support 
policies that promote innovation.
    In our last session we passed my bill out of the Committee, 
out of the Small Business Committee, that will reauthorize the 
Women's Business Centers for four years and increase the 
funding level to $31.5 million for each of the next four years. 
Women's Business Centers are an important resource partner of 
the SBA and provide full range of counseling and training 
services for small businesses primarily owned by women.
    The Kansas City WBC located in our district already serves 
over 600 clients annually through business trainings, 
workshops, counseling, and access to capital programs. With 
increased funding, the Kansas City Women's Business Center can 
expand their counseling and outreach across the large 
geographic region they serve. But that is not my only focus. I 
have also been working to improve other SBA programs such as 
the Small Business Innovation Research program, the SBIR, and 
the Small Business Technology Transfer program, STTR.
    These programs provide awards to small businesses operating 
in high-tech and innovative fields for purposes of research and 
development with the goal of commercializing those new 
technologies. The work that WBCs are doing, and the SBIR and 
STTR program awards, are creating jobs and investments that 
will revitalize towns and cities across the country. For years, 
investors via private equity and venture capital assumed that 
the only place to start an innovative technology company was in 
a small number of coastal cities, but thanks to the 
affordability of places like our district, the availability of 
high speed internet, and the highly educated workforce that the 
Kansas City metro area has become known for, we are one of the 
best places in the country for tech startups. Our startup 
growth rate was the highest in the country in 2018, up 6.2 
percent compared to last year. It is no wonder we are a leader 
in innovation.
    According to the 2018 state of the Silicon Prairie Report, 
Kansas City received an A in cool jobs and STEM, led by a 29 
percent in engineering, computer, and science jobs. We received 
an A in connectivity due to our advanced fiber networks as 
well. However, challenges remain. For over a year we have been 
experiencing a workforce shortage that has prevented many small 
businesses from expanding their operations. With a growing 
skills gap and increasing retirements from our aging 
population, small businesses are having a harder time than ever 
of attracting a high skilled workforce.
    This problem emphasizes the importance of transforming the 
education process and requirements for future work in our 
country. On top of the national workforce shortage, our 
region's workforce has decreased since the great recession. So 
despite the friendly entrepreneurship climate and ecosystem we 
have cultivated and the attractive incentives that have brought 
tech to this area, it will be virtually impossible to reach our 
full potential when employers cannot find qualified workers.
    Unfortunately, this workforce shortage disproportionately 
affects our small businesses who rely on employees with 
specialized skill sets to build and grow. When they are unable 
to fill those positions that require technical training or 
certification, their potential for growth is hindered. We need 
to do more at the local, State, and Federal level to close the 
skills gap and train the next generation of American workers.
    The recent tech boom has opened the door to many blue-
collar tech workers that don't need a four-year degree. There 
are thousands of mid-tech jobs in our region that are high-
paying and provide quality benefits. Workers can enroll in 
apprenticeships, job training programs, and industry recognized 
credentials to prepare them for these roles. We also need to 
support on-the-job training and retraining programs that allow 
workers to keep their jobs and get skilled up while they learn.
    Our schools, technical colleges and universities, must be 
part of the solution as well. From coding to technical 
training, partnerships between businesses, high schools, 
community colleges like the one we are in now, are changing the 
nature of education to align those skills with what is needed 
to build a 21st century ready workforce. While Kansas City is 
the best city in the world for start-up growth, we cannot reach 
our full potential without the skilled workforce to support the 
ideas and innovation that come from this district.
    I am excited to have officials from the State and Federal 
levels to hear about programs and policies they are working on. 
SBA and our State Department, Departments of Commerce, and 
Labor are a natural fit to address some of the concerns as we 
move our region's economy forward, and I am extremely thankful 
to the small firms in different sectors of the economy that 
have joined us here today to talk about the challenges they are 
facing and the opportunities that lie ahead. I will just take a 
moment to explain how this is going to work.
    First of all, I will introduce all of our witnesses and 
then each will be given some time to make an opening statement 
that summarizes their written testimony. We usually use a timer 
for this in D.C., but we will put that formality aside for 
today. It is usually a five-minute timer though.
    [Laughter.]
    And then, after the introductions, we will hear a statement 
from Congressman Cleaver. Our first witness is Mr. David 
Toland, the Secretary of Kansas' Department of Commerce. Since 
being appointed by Governor Kelly in January, Secretary Toland 
has overseen sweeping changes within the State's leading 
economic development agency. Under his leadership, the 
department is conducting a new economic strategic planning 
process for the State that will replace the 1986 Redwood-Krider 
Report. Prior to his appointment, he was a CEO of Thrive Allen 
County, a non-profit coalition that works to improve quality of 
life economic conditions in Allen County, Kansas.
    He also worked as an appointee in Washington D.C. with 
Mayor Anthony Williams, holding key leadership positions in 
D.C.'s economic development and planning offices. Thank you for 
being here Secretary Toland. Our next witness is Ms. Delia 
Garcia, Secretary of Kansas' Department of Labor. She returned 
to Kansas after serving eight years in executive and senior 
leadership in the national organizations of Reflect Us, 
National Migrant Seasonal Head Start Association and the 
National Education Association in Washington D.C. In 2004, she 
was elected to the Kansas House of Representatives where she 
served six years and served on the Commerce and Labor 
Committee.
    Ms. Garcia made history by becoming the first Latina and 
the youngest female ever to serve in the Kansas legislature 
when she was elected in 2004. She received her Master's degree 
in Political Science with an emphasis in Public Administration 
from Saint Mary's University in San Antonio, Texas and her 
Bachelor's of Arts from Wichita State University. Welcome, 
Secretary Garcia. Our third and final witness on the first 
panel is Mr. Thomas Salisbury, the Regional Administrator for 
Region 7 of the Small Business Administration. Before his 
appointment, he worked in Kansas City Missouri as a small 
business liaison for U.S. Senator Roy Blunt.
    He spent most of his career working in the lending 
industry, most recently as Vice President and Manager of 
correspondent banking with UMB Bank. He received a Bachelor's 
of Science from the University of Missouri at Columbia in 1974 
and attended the American Banking Association School of Banker 
Management.
    Thank you for being here, Mr. Salisbury. In the interest of 
time, we are going to go ahead and start with Secretary Toland. 
You are now recognized.

  STATEMENTS OF DAVID TOLAND, SECRETARY, KANSAS DEPARTMENT OF 
COMMERCE; DELIA GARCIA, SECRETARY, KANSAS DEPARTMENT OF LABOR; 
  THOMAS SALISBURY, REGIONAL ADMINISTRATOR, REGION VII, SMALL 
                    BUSINESS ADMINISTRATION

                   STATEMENT OF DAVID TOLAND

    Mr. TOLAND. Thank you and good morning Representative 
Davids, Representative Cleaver. It is a pleasure to be here 
today to testify about the state of innovation and technology 
in Kansas, both where we have been and where we have the 
potential to go as a State. To talk first about the State's 
early foray into the tech sector, it is important to talk about 
the 1986 Redwood-Krider report. In '86, the Kansas legislature 
and the State moved boldly on a bipartisan basis to establish 
new and innovative tools for economic growth. Their vision and 
action put Kansas on the map as a leader for advancing economic 
development efforts, including specifically in the areas of 
technology and innovation.
    The Kansas Technology Enterprise Corporation, or K-Tech, 
was established in 1986 to stimulate the startup and 
advancement of technology companies in Kansas. K-Tech's 
investment portfolio leveraged public and private dollars to 
invest early stage capital, facilitate programs to train and 
develop entrepreneurs, and focus on innovations that prepare 
the next generation of jobs in the knowledge industry.
    Drawing on those successes, the 2004 Kansas Economic Growth 
Act created the Kansas Bioscience Authority. At that time, the 
legislature and the Governor, again on a bipartisan basis, 
recognized another key opportunity. Pulling from the strength 
of our State's agricultural heritage, the KBA advanced 
solutions in agribusiness and helped Kansas establish and 
maintain the largest concentration of animal health companies 
in the world, which is now recognized as the heart of the 
Animal Health Corridor. By drawing from a world-class 
agricultural research institution in Kansas State and world-
class medical programs at KU, researchers made breakthroughs in 
oncology, information technology, medical devices, and other 
important areas of human and animal health.
    These investments played a huge role in securing a home for 
the national Bio and Agro Defense Facility, or NBADF, in 
Manhattan as well as securing the NCI Cancer Designation for KU 
Med Center. This work was truly ahead of its time and this bold 
vision left behind a legacy of innovation and collaboration 
across our State's economic development efforts. Kansas 
continues to benefit today from the foresight and the ambition 
of business and political leaders over the past 30 years, but I 
think we all know the economic environment has changed.
    Nationally, tech growth, commerce, and innovation are 
moving at unprecedented rates and the job growth and economic 
impact associated with tech shows no signs of slowing down 
nationally. Now there are reasons to be optimistic about the 
future of tech and innovation in Kansas. Just yesterday the KC 
Tech Council released a comprehensive report on the current 
state of the region's tech industry. The median tech occupation 
wage in Kansas is higher than that of many other Midwest 
States, and tech has permeated the Kansas City Metro's 
employment base more than it has peer cities, with 9.2 percent 
of Kansas side of Kansas City workers employed in tech 
occupations compared to cities like Indianapolis which 7 
percent, and Nashville at 6 percent.
    In fact, Kansas City had the seventh highest net gain for 
tech talent labor among the largest tech markets in North 
America over the past five years. So that is great news. 
However, these positive developments are concentrated to only a 
few geographies in our State and so the bigger picture creates 
reason for concern. Once a leader in tech and innovation, 
Kansas has somewhat fallen behind in recent years as a whole. 
We have experienced a loss of both tech jobs and tech 
businesses in the State. In 2018, Kansas posted the second 
highest amount of tech job losses among all 50 States and 
posted a net loss of total tech businesses operating in the 
State compared to 2017.
    Simply put, this is not acceptable. We have an obligation 
to the people of Kansas to understand what is driving this 
decline and to make the necessary corrections and adjustments 
to change the trajectory of tech and innovation in Kansas. Now, 
there are programs and incentives already in place that help 
address our State's challenges of attracting and retaining tech 
businesses and knowledge jobs. One example is the Angel 
Investor Tax Credit program, which encourages investment in 
small businesses. Eligibility for the program requires that a 
business demonstrate an innovative and proprietary technology 
which incentivizes tech startups in Kansas.
    We have also implemented unique workforce development 
programs such as Workforce AID which is workforce aligned with 
industry demand. Workforce AID brings together stakeholders 
from Government, business, and higher ed to address very 
specific workforce needs with targeted job training, 
certification programs, and paths to employment at Kansas 
businesses. And last month we made an important addition to our 
executive team at commerce in hiring Trent Armbrust as our new 
Director of Strategy for Technology and Bioscience.
    This is a new position and it is critical to ensuring that 
we rebuild relationships with private and public sector 
partners as Kansas seeks to help advance new technologies, 
support innovative research, create new jobs, and further 
advance its leadership across key tech and bioscience sectors. 
Our State universities are also engines of innovation and tech 
growth with institutions such as NBADF at K-State and the 
Bioscience and Technology Business Center, BTBC, at KU leading 
the way.
    And earlier this year Governor Kelly announced that the 
Department of Commerce would undertake an initiative to 
research and analyze the Kansas economy and deliver and 
economic development blueprint for the State, one with 
innovative strategies for business recruitment and retention. 
Just yesterday we announced that work on the Kansas framework 
for growth has begun, kicking off the development of a 
comprehensive strategy to accelerate economic growth in our 
State. The Kansas framework for growth marks the first time 
since 1986 that the State of Kansas has taken a deep look at 
our economy and aligned our economic development tools with our 
State's strategic opportunities.
    A very important component to this plan is a special focus 
on what it will take to grow the tech sector of our economy, 
including partnering with businesses and higher ed to address 
the development of a highly skilled workforce that can fill the 
knowledge jobs we have and those that we would like to recruit 
to our State. These are just a few of the steps Kansas has 
taken to begin regaining our position as a leader in tech and 
innovation but we do have a long road ahead. Technology is 
redefining our economy and our lives at a fundamental level and 
we must find ways to make Kansas more competitive, the future 
of our economy depends on it.
    So I will close there and thank you for the opportunity to 
testify.
    Chairwoman DAVIDS. Thank you, Secretary Toland. I promise 
not to bang on the mic again. Okay, would you mind turning your 
mic off? Okay, I think three mics on at one time is too many. 
This is all in the Congressional record.
    [Laughter.]
    I would ask that you please submit the KC Tech Council 
Report that you referenced in your testimony to the record 
because I think that it will be very informative.
    Thank you. Secretary Garcia, you are now recognized.

                   STATEMENT OF DELIA GARCIA

    Ms. GARCIA. Thank you, Congresswoman. Good morning, 
Congresswoman Davids and Congressman Cleaver. Thank you for 
this opportunity to testify. As you may know, I have grown up 
in a small business setting with my family owning a small 
business, the oldest in the State. So I very much value your 
work and legislation that you do in this Committee. Our Kansas 
Department of Labor actually has a lot to offer Kansas, whether 
you are an employer or an employee, a job seeker or a policy 
maker, an educational institution or an average Kansan, we 
provide assistance with unemployment insurance, wage claims, 
and workers compensation, and provide safety trainings across 
the State and permits for amusement rides operating in the 
State of Kansas.
    One area that I really want to highlight today is our area 
a division of Labor Market Information Systems, also referred 
as LMIS. We collect data, aggregate and analyze this data, and 
serve as a resource for Kansas employment related data like job 
vacancies, wage and job growth or loss, unemployment insurance 
claims, and administers and analyzes the data of some of our 
Federal workforce development programs.
    And recently, we shared a State of Labor Report around 
Labor Day and would like to also submit the final one to you if 
you would like. We just did highlights around Labor Day because 
we do an annual report every September 30th where we analyze 
all the aggregate data where we just have the state of 
laborers. And in that we highlighted for the first time 
publicly the different region areas because I wanted to make 
sure we did highlights focusing on rural and urban areas. The 
private sector grew by nearly 18,000 jobs over the past 12 
months and real hourly earnings labor market continued to grow 
as well in the past year.
    These numbers are good, but the news is the even though 
these numbers are good, we remain in a tight labor market like 
the rest of the country. So this is an opportune time to focus 
on areas where we could position Kansas as a leader in our 
country, and the data that I provided in my testimony shows the 
different data where we can highlight the areas of opportunity. 
One of them States that the 96 percent of the job openings 
projected will be from people exiting the labor force and 
transferring to a new occupation. But only 4 percent of the job 
openings will result from this industry growth.
    Also what the table shows is employment projections show 
Kansas will have 17,900 annual openings and jobs that require 
post-secondary education less than a Bachelor's degree. This 
includes post-secondary non-degree award, some college, and 
Associate's degrees. Another area that the data will show is 
Master's degrees and Bachelor's degrees are projected to grow 
at the fastest rate of all educational groups.
    And finally the median wage I would like to share of Kansas 
is $35,950. Most STEM jobs pay higher wages with typical wages 
above this value for 150 out of 158 STEM occupations with 
publishable wage data in Kansas. So out of the 150, 121 of 
these occupations pay above $50,000. Looking specifically at 
computer and mathematical occupations within STEM group, median 
wages range from $43,686 to $124,932. So partnering with some 
of our education partners and stakeholders is an area that we 
are going to want to go towards.
    I also want to thank you all for the work that you did in 
passing RESEA, also known as the Reemployment Services and 
Eligibility Assessment, because when we do have people come 
into the workforce centers, some of the stuff we supply the 
data for is what I am just noting right now, the LMI data, that 
shows if I am a job seeker, where can I be looking? If I am a 
college student, where can I be looking? And I just wanted to 
end with a good example of some of the efforts to grow the tech 
sector here in Kansas. Just recently we met with one of our 
stakeholders and he shared his startup small business where it 
is a smart pavement with prefabricated, precast concrete 
sections of a road service that would enable cheaper and faster 
roads.
    Another area that they are going to be working in is 
integrated roadways as smart pavement fiber, which is an optic 
sensing system that reports the position of vehicles in real 
time. So these are awesome examples of how we can grow this 
space and support. And I would be happy to answer any 
questions. Thank you.
    Chairwoman DAVIDS. Thank you, Secretary Garcia. And we will 
look forward to you submitting the annual report to the 
Committee. Mr. Salisbury, you are now recognized.

                 STATEMENT OF THOMAS SALISBURY

    Mr. SALISBURY. I want to make sure we do not get our 
microphones crossed here. Okay. Well, good morning. My name is 
Tom Salisbury and I am the Regional Administrator for Region 7 
of the United States Small Business Administration or the SBA. 
I would certainly like to thank you, Representative Davids, and 
the U.S. House of Representatives Committee on Small Business 
for the opportunity to speak this morning on the SBA's role in 
assisting existing and aspiring businesses to achieve their 
American dream. And Congressman Cleaver, it is great to have 
you with us as well.
    I would like to take just a moment to introduce the 
audience the District Director of the Kansas City office of the 
SBA, John Malcolm Richards, who sits behind me here. That 
office is responsible for the Western half of Missouri and an 
area of Eastern and Northeastern Kansas that does include the 
third Congressional district. This office works every day to 
inform, educate, assist, and counsel the business community, 
lenders, resource partners and investors, and entrepreneurs 
regarding the many services available through our relationship 
with the SBA.
    Well, we all know that a small business owners' commitment, 
energy, and skill are clearly the heart of any new or existing 
business. Today's evolving business climate often prompts the 
owner to seek and benefit from outside help. This help can 
often be from Federal programs, many delivered through the SBA, 
as well as from State and local programs. The SBA was created 
in 1953 by then-President Dwight D. Eisenhower, a Kansan as you 
well know, to offer programs and assistance to an expanding 
small business community being created by returning veterans 
from two recent wars. Our mission is to encourage, council, and 
foster success among small businesses.
    The SBA has a lengthy array of financial, technical 
assistance, and business development programs aimed at helping 
entrepreneurs start, grow, and expand their particular 
business. Additionally, the SBA plays a critical role in 
disaster recovery by assisting businesses, homeowners, and 
renters with direct financial assistance. I might highlight 
just some of the ways the SBA is engaged on the topics that are 
at hand today.
    The SBA has a range of lending program designed for 
virtually anyone seeking financing to start, grow, or expand 
their business, from our Flagship 7(a) program, which produced 
loans totaling $288 million in Fiscal Year 2019, to our 504 
program for larger projects, which made $45 million in loans in 
Fiscal Year 2019, all in the Kansas City District. Our Micro-
loan Assistance program helps make smaller loans available to 
underserved communities where capital is often tougher to 
access. These nonprofit micro lenders provide a much-needed 
service.
    The SBA also operates the SBIC program. While the agency 
does not directly invest in small businesses through the SBIC 
program, we do provide funding to qualified investment 
management firms with expertise in certain sectors or 
industries including tech firms. There is a licensed SBIC 
located here in the third Congressional district and yet other 
SBICs from across the country invested $58 million in Kansas 
small businesses in 2018. Ensuring that these lending and 
financial products reach rural parts of the country is a top 
priority of the Administration.
    Last year, the SBA and the USDA signed a memorandum of 
understanding to enhance collaboration between the agencies and 
increase access to capital. We are confident this partnership 
will help grow investment opportunities and boost economies in 
rural America. The SBA has a comprehensive array of programs 
for entrepreneurs and small businesses seeking help. This 
includes assistance to businesses you want to participate in 
Government contracting, or who are interested in exporting, or 
who need one-on-one counseling provided through SBA resource 
partners such as Women's Business Centers, as you have 
mentioned in your comments, Small Business Development Centers, 
and our score network of retired executives.
    Some of these resource partners are actually represented 
here today. We also support veterans and returning service 
members through Veterans Outreach Centers and our Boots to 
Business programs. We simply could not do what we do as well as 
we do it without the help of these resource partners. They are 
critical to our mission. Specific to technology, I did want to 
highlight a research and development program that you have 
already mentioned that the SBA is heavily involved with across 
the country.
    SBA monitors, supports, and establishes the policy guidance 
for the Small Business Innovation Research and the Small 
Business Technology Transfer programs--that is the SBIR and 
STTR programs that you mentioned. As part of SBA's outreach, 
SBA and the participating agencies travel around the country 
providing information to small business concerns on how to 
access these funds to support research, development, and 
commercialization of these innovative technologies. The SBIR 
Road Tour actually came through Kansas City a little earlier 
this year. The SBA is also aware of the workforce issue facing 
our country's small businesses.
    I recall a visit our former Administrator Linda McMahon 
made to Kansas during her Ignite tour last year. She and I 
visited Fire Lake Construction, a woman-owned information 
technology based company based in Lenexa. Fire Lake is a 
growing small business that participates in the 8(a) program 
and performs work across the public and private sectors. During 
our roundtable conversation with that company, the workforce 
challenges that is facing the company and the region were 
discussed.
    The SBA is a participant on the President's National 
Council for the American Worker. This is an effort to ensure 
American workers receive the training and skills needed to fill 
the job openings in our country. Part of it includes the Pledge 
to America's Workers, an initiative to commit to job 
opportunities and workforce training. To date, the pledge has 
been signed by hundreds of companies in a bipartisan mix of 38 
State Governors.
    Of interest perhaps for this hearing, last week Google 
pledged to help train a quarter of a million workers for 
technology jobs as part of the Administration's pledge. Here in 
the metro area, I recently accompanied our Acting 
Administrator, Chris Pilkerton, on a visit to Geiger Concrete 
Company, which has multiple locations in the region and has 
committed through the pledge to adding 125 new jobs by 2022. 
With the United States enjoying a roaring economy and 
unemployment rates the lowest in over 50 years, optimism 
regarding business investment is soaring.
    Prospective business owners are encouraged to take that big 
step and lenders are supportive. In addition to the efforts on 
workforce, the Administration has a number of initiatives 
designed to spur this growth. For example, the Tax Cuts and 
Jobs Act has proven to be a great initiative to encourage 
growth in the economy and to encourage investment.
    Also, the newly negotiated USMC trade deal is very 
important to small business growth. It is the first trade 
agreement with a chapter dedicated to small business and 
includes important provisions for technology companies such as 
digital and IP trade protections. The SBA was at the table to 
represent small businesses while the USMC was being developed 
and I am very encouraged to see that Governor Kelly has urged 
support for that agreement.
    Representative Davids, there has never been a better time 
to start a small business. I am honored to be a part of a great 
agency like the SBA and to work alongside dedicated public 
servants and job creators. As we like to say at the SBA, we 
power the American dream. I would like to thank you and the 
Committee for your support of our efforts and for hosting this 
important hearing today. Thank you very much.
    Chairwoman DAVIDS. Thank you, Mr. Salisbury. So I will 
begin by recognizing the gentleman from Missouri, Congressman 
Cleaver for questions.
    Mr. CLEAVER. Thank you, Madam Chair. And first of all, I 
would like to thank you for your visionary leadership in 
calling this meeting together and the reason is of course, you 
know, a field hearing is legally the same thing as holding a 
hearing in Washington D.C. in a Congressional hearing room. And 
I am hoping that this can not only continue but that it can 
grow, and the reason is every year Silicon Valley sends out 
invitations to individuals who are interested in small business 
and minorities who are interested in getting into this whole 
new field, and maybe 150 to 200 people are there and it is 
continuing to explode and explode and explode.
    Last summer, I spent one day in Fort Worth, Texas with a 
FinTech company. The CEO was 12, I think the CEO was 9, they 
were all 7 and 8 year old billionaires working. They were all 
day in shorts and shoes without socks and so forth and you 
know, I just stood there and watched them, and this is 
exploding all over the country.
    And what better spot I think for these companies to locate, 
right here in the Midwest, and if we can paint the picture to 
fit the reality that we have in the workforce, I think we are 
in a good spot. We are within 500 miles of the geographical and 
population centers of the country. It is not like somebody can 
beat us out.
    I mean this is the way it is, and the digital technologies 
are transforming the whole U.S. economy and the financial 
landscape. And we can do it. Bitcoins, cryptocurrency. I was 
telling my wife last night, I was lethargic from, I just got 
back into the country, so I am kind of not together so I would 
only do this for your Congresswoman.
    [Laughter.]
    But the reality is that in a few years, and I am not saying 
a decade, we are going to have so much business being 
transformed with money people do not see. I mean a homeless guy 
that stopped me and another member of Congress in Washington 
last weekend, weekend before last, and we were at Harris Teeter 
which is a grocery chain.
    And I said to him and I was not joking, I said to the guy 
asking me for money, I said, you need one of those little 
credit card things, you know, so you can slide the credit card 
over and give you a dollar to because--and I opened up my 
wallet showed him I didn't have a single dollar in there. And 
my colleague had two dollars. He showed him. So I mean the 
world is changing and we ought to take full advantage of it and 
we got to have a workforce.
    My final statement and then a question to the Secretary. 
The research division of USDA is moving to our community. I met 
with the employees of them and found out a couple of things. 
One, you know, the research division is not moving to our 
community, the framework of a research division--most of the 
people did not want to come. I won't get into the why, it is 
not pretty and something that is not flattering for our 
community, but they are not going to come. When we started 
pursuing the USDA research division, they had almost 700 
employees.
    Now my understanding is they may bring less than 100 into 
the community. These are high paying jobs. If you are inside 
the Federal Government, you are not going to ever get rich 
working for the Federal Government, but you know, you can have 
a good job and do a lot of fabulous work.
    So I mean, I keep thinking, I hope we have the workforce 
for USDA to get a lot of those people who are coming into town. 
And I am wondering, Madam Secretary, do you think that our 
region understands the significance of what is taking place 
with this transformation of our economy and whether or not we 
are equipped to provide the workforce that will be demanded in 
the present and certainly in the future?
    Ms. GARCIA. Thank you, Congressman. That is what our job 
is, is to make sure that we do share that information, which is 
why I wanted to note what we do with our labor market because a 
lot of people don't know that we even provide that information. 
And we work closely with the Department of Commerce on 
workforce issues.
    We are one of the one-stop shops, but as you referenced 
earlier, we recently went to a workforce conference a couple 
weeks ago where they talked about the Industrial Revolutions in 
1940 the car, in 1970 the computer, in 2000 the internet, in 
2030 if we are not ready on both ends, because it will be the 
first time that we have more robots doing things so if we have 
to then invest and really hone in on the STEM areas but also on 
the workforce places that will actually--I don't want to go to 
a doctor and have a robot talk to me. I want somebody who is 
going to have those power skills, also referred to as soft 
skills.
    So really putting our resources and working with 
stakeholders is going to be our job to be making sure that if 
the information is out there because also it is important to 
note too that we have in our LMI, we have a lot of the Baby 
Boomers who are we going to be retiring in these next few 
years. And the good thing, the rich asset we have here in 
Kansas and the Midwest is that it is very cheap to live here. 
People are moving. The population growth has increased but also 
we still have that tight labor market workforce.
    So how do we capitalize on that opportunity? So that it 
will be our job that we will be doing and continue to work with 
leaders like yourself and then also groups like last week we 
met with the Women Business Leaders. You know, how do we 
support those, and thank you again for that funding, the 
bipartisan legislation. Without that kind of support we won't 
be able to grow. So it would be working with our policymakers, 
education leaders, and leaders across the every spectrum.
    Chairwoman DAVIDS. The gentleman yields back. So I would 
like to start with my first question with Secretary Toland. 
When you were appointed, how much of a priority did you see 
education and workforce development as in the Department of 
Commerce and how has that shifted with you taking the helm? And 
then could you follow that up with some of the results that you 
are seeing from--I know it has only been since January but with 
some of your testimony earlier, it sounds like there is 
probably a few results that you could share with us today.
    Mr. TOLAND. Yes. Thank you, Congresswoman. So coming in in 
January what we found is that there has been a focus on better 
alignment between K-12 and higher ed with Department of 
Commerce and our partners. The fact is we can do better. You 
know, there have been relationships such as where there was 
once a shared position between the Department of Commerce and 
the Kansas Board of Regents so that we could make sure that as 
our State universities are cranking out talented, qualified 
graduates, that we are trying to keep those folks in the State 
and that they are not becoming yet another export of the State 
of Kansas.
    We need to keep our talented young people in our region, in 
our businesses, particularly in the tech sector. And so we have 
made a focused effort to make sure that there is better 
alignment between the Department of Commerce and K-12 and 
higher ed. And so that goes all the way down through the 
Secretary's Office to our workforce centers across the State, 
and I think we are going to see some fruits of those labors. I 
think also the decision to re-establish a position that is 
focused on tech and the life sciences is an important step 
forward.
    So Kansas really got out of the game about a decade ago as 
it relates to State Government engagement in the tech sector, 
and so Governor Kelly has made it a priority that we re-engage 
in a thoughtful way. And so the hiring of Trent Armbrust as our 
Director of Strategy for Bioscience and Tech is really 
important as we figure out what we do next. So Trent is going 
to be engaging with companies across the region, and you know, 
that is a series of conversations that are long overdue. And we 
have had a really good response to that decision.
    So I am excited to see where that goes. But you know, we 
are trying to make up some lost ground, frankly, as a State, 
and I am optimistic that we can do that and do it quickly 
because we have got such a strong sector in Kansas City, and 
that is both sides of the State line. You know, the USDA 
decision was made possible because of a bipartisan, bi-State 
cooperative effort to beat out 137 other communities that were 
vying for those jobs.
    And so, if we can take the same kind of cooperative 
approach as we tackle how we continue to grow the tech sector 
in Kansas City, I think we can make a lot of progress.
    Chairwoman DAVIDS. Thank you. Okay. I think the batteries 
are going out. I did talk for a very long time earlier. So I 
actually want to just ask--I will ask one more question and 
then we will return to Congressman Cleaver, and then we will 
exchange time here.
    So I wanted to follow up with some of the testimony and 
then response to Congressman Cleaver's question, Secretary 
Garcia. Around some of the bigger changes that we are seeing in 
the labor market and with the recent report that you had come 
out, can you talk to us a little bit about, you mentioned Baby 
Boomers, but can you talk maybe about some of the biggest 
trends that you saw coming out of that?
    And I guess where we need to see our growing job training 
programs that are going to help folks get into some of the 
higher wage positions that you started to get into earlier?
    Ms. GARCIA. Thank you, Congresswoman. So one of the things 
we saw, and especially in the different regions, so we see a 
lot of rural residents working in the urban areas, but then 
they go back and live in the rural areas. And so one of the 
things that was very evident in some of the labor market 
research that we had in our data was that if we could just 
support, put more of the emphasis in trainings across the 
State. So one of the things that has been helpful in the data 
that we did see was, particularly in the tech--and well there 
is the TA, so it is the technical Ed partners and so working 
with community colleges also was just in general. Part of the 
data that we had seen in that, where the projections are going.
    So right now we are in a 3.2 percent unemployment rate, 
which is a low we have had in Kansas in 20 years and at the 
national level as well. And so that is an exciting fact. I want 
us to really focus on what could happen. It is not if but when 
we have a recession, and so what we want to do is making sure 
our workforce is trained, and so training is an area that we 
know we would like to focus in. So that is some of the data 
that we saw in the Labor Market Report to be able to--so we 
have the workforce here, we just want to make sure that we are 
supporting the programs, whatever it is, whether it is on the 
community colleges, whether it is in the workforce centers, and 
so back to what I was saying earlier.
    The RESEA funding was very helpful because that is funding 
that was not permanent, where the WIOA funding is not. So that 
is an area that we would like to focus in using our labor 
market information and to how to guide us to how we can move 
forward with that.
    Chairwoman DAVIDS. Thank you, Secretary Garcia. With that, 
I will yield to my colleague, the gentleman from Missouri.
    Mr. CLEAVER. Thank you again. Two, three weeks ago, I was 
talking about my son. I said, we need to get a TWA museum in 
Kansas City. He said, what is a TWA? And I said, what? And I 
said, it is an airline. It used to be, and I said Kansas City 
was the hub. And he said, oh, okay, you know, and I said you 
probably do not remember Eastern Airlines which was a Kansas 
City hub, and Braniff Airlines, which was a Kansas City hub.
    We had most of the cities around in the whole Midwest with 
three hubs right here in Kansas City. And so that, I am always 
thinking hub, and we have some advantages and this for Mr. 
Salisbury, but I would like for all of you to maybe contribute 
to this answer. And that is, I think we ought to try to become 
the Midwest technology hub. We got one Silicon Valley, but I am 
talking about here in our metropolitan area and we have an 
advantage that most of the members of Congress don't have, that 
most of their constituents don't have, and this is unique.
    Missouri delegation, we are the only delegation that can 
meet without people bringing guns and swords and knives. And so 
we meet, we work together, we get along, and just think about 
this, no other city, no other area can do this but us. We have 
Kansas Congresswoman Davids, Emanuel Cleaver, Sam Graves, Vicki 
Hartzler, Jerry Moran all of us right here can concentrate on 
this area. Nobody else can compete with us. What can we do to 
make this a reality? What steps do we need to take? What can we 
do to help make this a reality?
    Mr. SALISBURY. That was for me? Well, you know, 
Congressman, I would echo your comments on the hubs and so 
forth. I just happened to be in your home State this past 
weekend. And was in Love Field and drove up Braniff Way on the 
way to the terminal as you note. To your point about what we 
can do, I think we are well on the way to doing that. I would 
refer you to the Kauffman Foundation which sits on, you may 
have heard of it, Emanuel Cleaver Boulevard and the Kauffman 
Foundation, for example, a number of years ago came up with the 
concept called 1 Million Cups, which has now gone nationwide.
    So there is that example of people gathering with concepts, 
gathering, talking about these concepts, bouncing it off other 
people with similar frames of reference and so forth, and that 
one concept that we talked about, 1 Million Cups, is now 
nationwide, but everybody knows that it was initiated and 
emanated from Kansas City. We have other areas of attractions 
as we have talked about, the low cost of living, the high 
wages, a great workforce, people that are interested in 
working.
    We have now recognized and returned to recognizing that the 
manufacturing sector is just as important as the tech sector as 
far as employment is concerned. I think your reference to the 
USDA research folks coming out here is a great indication that 
other agencies have recognized the attractiveness of this 
particular sector, and I would suggest that if they only come 
here with 100 people, that we can easily backfill those other 
600 jobs with people that are right here studying at K-State 
and KU, and MU and Missouri Western and learning the skills and 
learning the technology issues that have to do with coming in 
and taking care of that.
    So I would think that, I am going to lay some of this back 
at your feet, I would think with the legislation power that you 
individuals have and the fact that you do work together very 
well, I would suggest we have got a great synergy of the 
Representatives and Senators from the two States that can make 
sure that people understand what a great area this is for 
people to relocate to and bring their industries to.
    Ms. GARCIA. I would also like to add, Governor Kelly has 
been doing a great job with putting us on the map. Again, you 
know, with her leadership in education policy moving forward 
and as well as making sure people are healthy and happy when 
they go to work.
    So I think what with us and our Department of Labor really 
sharing the information on the labor market information so that 
we have small businesses who come. We are fabulous and 
beautiful to come live in and we want the world to know that.
    And so when we can share the information in our labor 
market research so that people can use that to build businesses 
to move here because it is the best place to live.
    Mr. TOLAND. I think there are four things that we can do. 
First, we need to have conversations and ask the right 
questions of the tech companies that are already here, and you 
can start with the big ones, Garmin, Cerner, Sprint. But also 
small companies, some of whom are in the room today, and find 
out what are the barriers that they see, what are the 
opportunities they see, and let us take what they say and act 
on it.
    Second, I think if we focus in a specific area. So, for 
example, cybersecurity. That is a slice of the tech sector that 
holds a lot of opportunity and where there is a ton of need. 
And I think if the Kansas City region and our States can make a 
focused effort to solve the workforce shortage in one sector, 
or one sub-sector like cyber security, that gives us an 
opportunity to carve a niche for ourselves and grow from that.
    Third, I think that quality of life is really important. 
So, you know, you think about young people, Millennials in 
particular, who are coming out of college. They can live 
wherever they want, and it is important that communities like 
Kansas City continue to invest in quality of life improvements, 
and having a vibrant core, and having great schools, and parks, 
and trails, and dog parks, and all those pieces that make one 
community more attractive than another.
    And then finally, I would just stress again the importance 
of regionalism, and you know, the fact that we have 
Representatives of both States here today on both sides of the 
State line, Governor Kelly and Governor Parson have worked 
closely together to achieve a ceasefire in the border war on 
economic development incentives. And so I think that is a 
building block that gives us an opportunity to do more 
strategic things down the road that will grow our economy and 
grow the Kansas City region and both of our States.
    Chairwoman DAVIDS. Thank you. The gentleman yields back. So 
I just want to say I appreciate you all taking the time. This 
was a great question for us to end this panel on. I know you 
all have busy schedules and so it is very, very important, 
sends a strong signal that you were willing to take time out of 
those schedules to be here with us today. You are now excused 
from the Committee hearing, and we will take a moment while we 
get our next panel setup. Thank you.
    All right, well, thank you for everyone who stayed and to 
our new panel of witnesses who are here today with us. The 
first thing I want to do is before I get to the introductions 
of the panelists who are here to offer testimony to the Small 
Business for this field hearing is to recognize Congressman 
Cleaver for opening statements for this panel, and then I will 
go into introductions.
    Mr. CLEAVER. Sure. I have gotten excited because of the 
discussion we have had, and I want to thank Congresswoman 
Davids for--and this is good stuff. This is visionary stuff. 
And I think we have something we can sail. I live in Washington 
in the Memphis building. It is first, right off of 
Constitution. I live next to the Supreme Court. It is the only 
none Government building on Capitol Hill and I pay $2,000 a 
month rent.
    And my apartment is about a fourth of the size of this 
room. And you know, I can have parties with three people, and 
it is crowded, so I understand. And if I had to pay $2,000 a 
month here, I would have a $300,000, $400,000 home with a yard 
and a dog. You cannot do that in Washington. And so when we are 
talking about a workforce capable of taking the 21st century 
jobs, we have got something to offer here in our metropolitan 
area than Washington can offer or Chicago or New York or Miami.
    You know, it is unique and so I think that, you know, if we 
have the intellect and the commitment to do this based on what 
the Congresswoman has already done, which is brought us 
together for this initial conversation, I think we can do 
something that generations down the road would look back and 
say that, you know, they are happy that we met here in Kansas 
City, Kansas Community College in 2019 to kick things off. And 
let me just also say that the tragedy of this moment is if we 
don't take advantage of this moment.
    We are already ahead, and we have the Congresswoman who I 
think has the know-how and also the support and everybody in 
Congress likes her. Nobody is mad at her. So she can get things 
done that other people cannot get done because people, you 
know, both sides are interested in working with her. So I want 
to thank you for being here and hopefully you can give us some 
profundities that will allow us to move ahead.
    And I am pledging to work with your Congress member to try 
to do something that we can--you know, this is not just a 
meeting to have a meeting that. That something come out of this 
that would last for lifetimes. So thank you very much. I will 
yield back the balance of my time.
    Chairwoman DAVIDS. The gentleman yields back. I want to, 
again, thank you to the witnesses on today's second panel. I 
will take a minute to introduce each of you before you testify 
and just so that no one is surprised, I do believe that 
Congressman Cleaver will be exiting prior to the conclusion of 
our panel today. So our first witness today is Ms. Neelima 
Parasker, President and CEO of SnapIT Solutions in Overland 
Park, Kansas. She has a Bachelor's in Mechanical Engineering 
and a Master's in Computer Science with a Project Management 
professional certification from the Project Management 
Institute.
    She has 15 plus years of experience in IT and held 
leadership positions with Fortune 500 companies. She founded 
SnapIT Solutions LLC, a technology services and solutions 
company in 2015 with the goal to make a positive impact on 
underserved and under-resourced communities that aspire to 
promote STEM and bridge digital inclusion. Thank you for being 
here.
    Our second witness is Mr. Reuben Alonso III. As President 
of AltCap, which is headquartered in Kansas City, Missouri and 
has recently expanded services to the Kansas side, Mr. Alonso 
is responsible for the overall administration, management, and 
ongoing development of the organization and its targeted 
lending activity, as well as its small business and economic 
development programming. He has led the organization since 
2007, overseeing its certification as a community development 
entity and then as a community development financial 
institution.
    Prior to his role with AltCap, he was a Project Manager for 
the City of Kansas, City Missouri's Development Finance 
Division, a Program Manager and Consultant for the Los Angeles 
Minority Business Development Center, and Finance and Royalty 
Accounting Supervisor for EMI recorded music. He earned a BBA 
in Accounting from the University of Miami School of Business 
Administration and a Master of Public Policy with a 
concentration in Economic Development from the University of 
Southern California's Price School of Public Policy. Thank you 
for being here today.
    Our third witness is Ms. Tammie Wahaus, the Chief Executive 
Officer of Elias Animal Health, a subsidiary of TVAX Biomedical 
Company. She joined as CFO in 2012. Ms. Wahaus has more than 25 
years of experience in both public accounting and private 
business. She has served as Vice President of Finance for Epic 
Systems, Inc., as an audit partner with Ernst & Young LLP, and 
as a Controller and Principal Accounting Officer for GE Global 
Insurance Holding Corporation. She has a B.S. in Business 
Administration from Kansas State University. Thank you for 
being here.
    Our fourth witness is Mr. Brad Sandt, as President and CEO 
of Menlo, K12itc, Civic ITC, an information technology company 
that helps K through 12 schools and local Governments cut their 
IT costs and update their infrastructure. Before starting his 
business, he was the Director of Technology at Park Hill School 
District. He has a Bachelor of Science degree from Park 
University in Management Information Systems, Business, and 
Computer Science. Thank you for being here today.
    Our final witness is Mr. Daniel Silva, the President and 
CEO of the Kansas City Chamber of Commerce. Prior to joining 
the KCK Chamber, Mr. Silva was the Director of Diversity and 
Inclusion at the Greater Kansas City Kansas Chamber of 
Commerce. He received his Bachelor's of Arts in Sociology from 
the University of Missouri in Kansas City. Welcome, Mr. Silva. 
Thank you for being here. So I will start off by recognizing 
Ms. Parasker for--I forgot we were doing away with the 
formalities--for approximately five minutes for your testimony.

   STATEMENTS OF NEELIMA PARASKER, PRESIDENT AND CEO, SNAPIT 
SOLUTIONS; RUBEN ALONSO III, PRESIDENT, ALTCAP; TAMMIE WAHAUS, 
CEO, ELIAS ANIMAL HEALTH; BRAD SANDT, PRESIDENT AND CEO, MENLO, 
K12ITC, CIVIC ITC; DANIEL SILVA, PRESIDENT AND CEO, KANSAS CITY 
                   KANSAS CHAMBER OF COMMERCE

                 STATEMENT OF NEELIMA PARASKER

    Ms. PARASKER. Thank you. May I please the Committee. Thank 
you very much, Representatives Davids and Cleaver for inviting 
me here today. My name is Neelima Parasker. I am schooled as 
Masters of Computer Sciences and Engineering and have 15 plus 
years of high-tech Information Technology industry experience. 
In 2015, I founded SnapIT Solutions, an innovative technology 
solutions and services company with the capabilities in IT 
managed services, mobile and web application development, data 
analytics, Cloud, DevOps, and also providing IT trainings.
    I am pleased to inform that as of 2019 September, SnapIT 
Solutions is also a certified training institute by Kansas 
Board of Regents and Missouri Eligible Training Provider 
Services. The current state of technology industry and high-
tech workforce shortage. The tech occupations are projected to 
add about 500,000 new jobs in the current workforce and we need 
upscaling and retraining to meet the ever-changing technology 
innovations. Because of the landscape changes that are 
happening in our industry that are including AI and new 
technologies like ARVR, that tech shortage that we are seeing 
right now is going to only increase tremendously.
    The next point I want to bring out is small companies, 
small businesses with their innovative new technologies disrupt 
the industry but fail to sustain the growth in scale due to 
high tech skills shortage. Large organizations attract 
considerable interest in the technology job market but 
struggled to re-skill their existing workforce in fast changing 
technology industries. Computer Sciences four degree 
requirements is a challenge to IT workforce because we are 
hardly getting to the 25 percent mark of what the industry 
needs as of today and not even considering the exponential 
growth in this field.
    Innovative tech companies like Google, Apple, and Netflix 
have recently abandoned their requirements of four year degrees 
college requirements. My journey started well aware of the 
challenges that I will be facing in my tech company in terms of 
finding right talent while I am scaling the company. Through my 
job volunteering as a STEM engineering speaker, I stomped upon 
great hidden opportunity that may help solve this challenge for 
my small business here in Silicon Prairie.
    SnapIT's innovative regenerative workforce model has been 
recognized as a model that solves the high-tech skilled 
workforce shortage for not only small business like ours but 
also major corporations who seek us for their increasing demand 
in IT skills, which is a good news. SnapIT Solutions is proven 
for dynamic, regenerative business model implemented since 2016 
that provides underserved and under skilled job seekers with a 
platform to demonstrate their skills and push their limits 
through our three step model, SnapIT Trains, SnapIT Solves, and 
SnapIT Pods.
    The way we have incorporated this model helps students like 
Lisa who was a trained musician with a flair to enter into the 
tech industry, went through trade SnapIT's IT trainings that 
were designed to bring these non-tech background interest 
students, and after the three months of rigorous training that 
we conducted, she was hired as an intern and then converted 
into an apprentice for software within the company, giving her 
all through the internship and especially through the 
apprenticeship real world projects to work on while the 
timelines and aggressive, you know, dates are little eased 
into.
    That is when the SnapIT Solves comes into play where we 
contract with small medium businesses to create the software 
solutions, giving them a very cost-effective product where as 
they give us the timeline constraint that we can work with our 
junior associates to build these products. At the Pods level of 
our business model, we bring in major corporations work in a 
scope of work format and get the work done and delivered risk-
free for the major corporations while we are still working with 
our associates to build the skills that are needed and incubate 
them in these pods, while giving our subject here, Lisa, an 
ability to not only increase her skills in technology, but now 
she can code in three different software languages.
    She was a musician a few years back, and she continues to 
be a musician, but this places her pretty high and you know her 
pay range. It is important for me to also point out the 
trainers and mentors that SnapIT tracks who are senior 
developers within our organization that are appreciated, and 
actually their promotions, their next level is determined by 
how many people they are mentoring and promoting within the 
company. That creates an enthusiastic, you know, cycle within 
seniors and the juniors that are coming into the company after 
our trainings are done. What is the proven record for this 
model?
    It has been two years since we placed this model in 
existence and we have created within SnapIT t32 full-time 
positions. These are not placements. These are positions that 
we are getting the work for done within the company. It is a 
different model in terms of bringing these resources and taking 
the responsibility of delivering the work using the resources 
that we have skilled and trained. Out of the 32 full-time jobs 
that we have, about 70 percent of our team is from the talent 
that has been coming from untapped categories within our 
communities here in Silicon Prairie.
    We do not restrict the hiring of the students for training 
with four-year degree. So that helps us quite a bit. SnapIT 
trainings as such have been given to 90 plus individuals 
specific to Missouri County, Missouri City--sorry, Missouri 
State, because we work very closely with Missouri workforce 
agencies. SnapIT is scaling its model across the Nation, 
delivering value in government, private and public sectors all 
from within SnapIT Silicon Prairie located here, locally.
    We have the infrastructure to showcase our full 
entrepreneur ecosystem and ensure access to vibrant ecosystem 
that includes all the players. Intentional Government and 
corporate investment in small medium businesses has tremendous 
positive impact across the board. What will SnapIT need to 
expand work in increasing talent in IT? Increasing the support 
of engagement for all players in the ecosystem, specifically 
Government agencies and corporations. We do have private 
corporations that come to us with major work that they need to 
get done.
    I would love to see this be more of an initiative within 
Federal Government as well, State and local, that can take this 
model of, you know, getting their work done via resources that 
have not traditionally gone through a four-year degree or 
mandate them to have a four-year degree. More Governments and 
corporations utilizing the students that have been trained 
through not only training but also apprenticeship programs 
would be a right fit to get into the Government agencies.
    So these are the some of the things that we get think of. 
There are SBIR, STTR activities from SBA. There has been SBA's 
match competition as well that brings in fresh air of 
recognition that IT talent is needed, and Federal Government is 
looking at this space as considering one of the initiatives and 
activities. So funds like that truly will help SnapIT or 
companies like SnapIT that are invested in growing IT talent.
    In closing today, I speak to, you know, continue to focus. 
I thank Representative Davids and Representative Cleaver for 
bringing the attention of this particular topic in small 
businesses, and I continue to want that support for small 
businesses and help create more highly skilled tech for 
workforce here, locally, in Kansas. We invest in local 
businesses, but we cannot do it alone. Again, this has to be an 
ecosystem driven activity. We are already blessed with a lot of 
partners identifying this new model. We would love to expand it 
beyond these partners. Thank you.
    Chairwoman DAVIDS. Thank you, Ms. Parasker. I appreciate 
your testimony, and speaking of ecosystem, Mr. Alonso, you are 
recognized.

                 STATEMENT OF RUBEN ALONSO III

    Mr. ALONSO. Thank you. My name is Ruben Alonso III. I am 
the President of AltCap, an impact-driven CDFI and SBA 
Microloan intermediary serving the Kansas City metro. I am 
also, a Board member of Equity Squared, an investment affiliate 
created by AltCap focused on Opportunity Zone investments in 
Kansas and Missouri.
    I want to thank Representative Davids and members of the 
Committee for the opportunity to speak today about supporting 
tech innovation and a high-skilled workforce in the Heartland. 
I will speak specifically to the importance of access to 
capital and how it can help drive business investment in 
technology and innovation in the Heartland. As jobs in the 
manufacturing and agriculture sectors continue to wane, 
investments in technology, innovation, R&D, and workforce 
development are key to ensuring our economy in the Heartland 
continues to grow.
    While the Heartland offers a number of advantages that make 
it attractive for business investment, for example, it is 
centrally located, its low operating and living costs, our good 
old Midwest work ethic, we continue to fall short when it comes 
to attracting venture or equity capital. Around 80 percent of 
venture capital investment is consistently concentrated on the 
coasts.
    Addressing this disparity is critical to supporting the 
growth and development of industries and the broader economy in 
the Heartland. As a CDFI, AltCap is focused on supporting 
economic development through entrepreneurship and small 
business investment. By providing financing through CDFI Fund 
programs, including the New Markets Tax Credit program and 
Financial Assistance Award program, AltCap is supporting start-
up and existing small businesses as well as our local economy. 
Yet the debt financing that AltCap provides, while offering 
significant flexibility to the borrower, is not always ideal 
for tech-based businesses because of the burden of monthly debt 
and interest payments, not to mention they typically have few 
assets to help secure a loan.
    That said, many of these businesses are what drive 
innovation and are largely responsible for high-skilled 
workforce development. They cannot be ignored. With the 
creation of our recent Opportunity Zone investment affiliate, 
Equity Squared, we now have a tool to deliver the type of 
capital that can support deeper investments in tech and 
innovation in the Heartland, and specifically in communities 
that have lacked investment.
    The Opportunity Zone incentive gives us the ability to one, 
attract investment capital both locally and nationally, and 
two, significantly increase our investment in innovation-
driven, tech-based businesses, offering them the type of 
patient capital they need to develop and grow right here in the 
Heartland. Our hope is that by using the Opportunity Zone 
incentive we will be able to attract more investment capital 
and open up new opportunities for investment by investors 
throughout the country in tech and innovation in the Heartland.
    Access to capital and investment tools such as New Markets 
Tax Credits and Opportunity Zones will continue to play an 
important role in supporting business investment in technology 
and innovation in the Heartland. Much like our agrarian roots, 
AltCap and Equity Squared are committed to leveraging these 
tools to grow Kansas and Missouri small businesses and grow our 
economy.
    Representative Davids, thank you for the opportunity to 
testify today. I am happy to address any questions that you may 
have.
    Chairwoman DAVIDS. Thank you, Mr. Alonso. Ms. Wahaus, you 
are now recognized.

                   STATEMENT OF TAMMIE WAHAUS

    Ms. WAHAUS. Good morning. I am Tammie Wahaus, the Chief 
Executive Officer of Elias Animal Health and the Chief 
Financial Officer for TVAX Biomedical. I would like to thank 
the Committee on Small Business and in particular 
Representative Davids, for the opportunity to share my 
perspective on technology innovation and a highly skilled 
workforce in the Heartland. ELIAS and TVAX are great examples 
of the translational research being conducted in the Silicon 
Prairie. Together, we are advancing a vaccine enhanced adoptive 
cell therapy as a treatment for cancer in both humans and in 
companion animals.
    Collectively, our data demonstrate the potential 
applicability of our innovative technology to any type of 
cancer in humans or in dogs. In developing our technology, we 
have worked with many of the great research institutions in 
this region. Scientists, researchers, and clinicians, including 
MDs and veterinarians have all participated in laboratory 
research, preclinical studies, and clinical trials in humans 
and in companion animals. We are currently located in the 
Kansas Bioscience Venture Accelerator and have taken advantage 
of what was the Kansas Bioscience Authority programs.
    First, I would like to focus more on Elias Animal Health 
and the job creation that we can accomplish here in this 
region. We are a medical biotechnology company that is 
commercializing now a novel targeted T-cell based immunotherapy 
known as Elias Cancer Immunotherapy or ECI for short. The 
company's proprietary and patented therapeutic approach offers 
the potential for improved clinical outcomes with low toxicity, 
changing the way cancer is fundamentally treated in the 
companion animal market. Elias was founded in 2014 as a spin-
off of the human health company TVAX Biomedical and a 
recognition of the market potential for innovation in the 
companion animal oncology space.
    In 2019, just five short years later, we are 
commercializing our technology for the veterinary sector with a 
platform that has the potential for all cancer types. Over the 
past five years, clinical studies in key canine cancers have 
been conducted evaluating ECI in multiple canine cancer types, 
including osteosarcoma, B-cell lymphoma, and hemangiosarcoma. 
To date, nearly 100 dogs diagnosed with cancer have been 
treated with ECI and the results have included both complete 
and partial responses with many of those patients achieving 
improved survival times compared to traditional treatments such 
as chemotherapy and radiation.
    The results of our study in canine osteosarcoma have been 
reported at several scientific conferences around the United 
States. In that study, more than half of the dogs treated with 
ECI survived over three times longer than what has historically 
been achieved with the amputation alone, and one and a half 
times as long as historically achieved with amputation plus 
chemotherapy, all that with minimal adverse events. In the most 
current analysis, 50 percent of the dogs in the study were 
reported to be long-term survivors. They are disease free for 
periods ranging between four and six times as long as 
amputation alone and three times as long as chemotherapy.
    In addition to improved median survival times we observed 
regression of metastatic disease and slow disease progression, 
highlighting the promise of this therapeutic approach developed 
right here in this region for treating cancer in dogs. An 
application for conditional licensure been submitted to the 
USDA Center for Veterinary Biologics. In our manufacturing 
facility currently located in Olathe, Kansas, we are 
manufacturing following the regulatory guidelines of the USDA.
    We have in place a team who together have more than 20 
years of experience in the animal health industry from here in 
the animal health corridor and with more than 30 years of 
experience in cGMP, vaccine manufacturing and cell culture. We 
currently employ seven full-time employees with two part-time 
employees.
    Our scale up plans have already been designed for this 
facility that will enable rapid expansion. It can be replicated 
at a low cost and at scale we estimate that we could create 
manufacturing jobs for more than 100 microbiologists and 
scientists along with quality assurance personnel. This would 
include both two and four-year degrees. Through veterinary 
specialty hospitals that we are training and certifying as ECI 
treatment centers coupled with the positive clinical outcomes, 
we intend to build market share of at least 37,000 patients per 
year generating revenue in excess of $100 million per year. 
Further growth can be achieved through expansion to markets 
outside the U.S. as well as in other species such as cats and 
horses.
    To date, Elias has raised just over $5 million in equity 
capital primarily from regional investors. By putting that 
capital to work, we have employed a multidisciplinary team that 
includes expertise in cancer immunology, veterinary medicine, 
microbiology, clinical trial oversight, and regulatory 
compliance to bring this product to market.
    The progress that we have made in just five years with only 
$5 million is rare in this industry. A funding round of up to 
$5 million is currently being pursued to support the continued 
expansion of our commercial launch. The Small Business 
Innovation Research program is a potential source of funding 
for early stage life sciences companies like ours that provides 
an opportunity for businesses like Elias to pursue grant 
funding that is additive to the capital raised from investors, 
and we currently have an application under consideration right 
now at the National Cancer Institute, so wish us well.
    Raising adequate capital to support the rapid development 
and commercialization of this cancer treatment is critically 
important to the overall success of the business. Speed to 
market is key as a differentiator for innovative technologies. 
As mentioned, TVAX Biomedical was--I am also representing a 
clinical stage biotechnology company that is testing the same 
technology for applications in humans. They have treated over 
200 patients with various types of cancer, including high-grade 
gliomas, which is a brain cancer.
    Surrogate outcomes demonstrated that 90 percent of the 
patients developed an immune response and currently our plan is 
to conduct a 75 patient phase 2B clinical trial to assess the 
technology as a treatment for newly diagnosed pediatric and 
adult brain cancer. In summary, Elias Animal Health and TVAX 
Biomedical are focused on changing the way cancer is 
fundamentally treated. Our mission is to provide a safer, more 
effective treatment option for cancer patients, and to achieve 
that goal we need increasing access to a workforce skilled in 
biologics manufacturing, clinical trial oversight, cancer 
immunology, human and veterinary medicine, and regulatory 
compliance.
    Bringing a life sciences product to market takes years of 
scientific and clinical development and costs millions of 
dollars. From early stage development through to regulatory 
approval and marketing takes five to seven years. Along with 
the great work being done by Elias Animal Health and TVAX 
Biomedical, there are many other important life sciences 
innovations being created in the Silicon Prairie.
    In my experience, we have a robust angel investor 
community, but it is critical that venture funds, institutional 
investors, and the granting agencies become more robust in 
their support of emerging technologies in the Heartland. We 
have great universities that are building critical education 
programs to train the workers that will support the life 
sciences industry and the expanded support from the broader 
investment community would provide the capital to bring our 
cancer treatment and other innovations to market.
    Thank you for the opportunity to speak to the Committee.
    Chairwoman DAVIDS. Thank you for your testimony, Ms. 
Wahaus. Mr. Sandt, you are now recognized.

                    STATEMENT OF BRAD SANDT

    Mr. SANDT. Congresswoman Davids, I thank you and the 
Committee for the opportunity to testify today. It is an honor 
to be joined by my regional colleagues to speak about the great 
things happening in the Nation's Heartland also known as the 
Silicon Prairie. I offer this testimony on behalf of Menlo, a 
tech focused small business that delivers managed technology 
services to K-12 schools, municipalities, and other civic 
entities under the brand's K12itc and Civic ITC. Our mission is 
to reduce the pains associated with managing technology in 
resource constrained environments.
    As a fast growing organization, Menlo has been previously 
named as the top small business in Kansas City by the Greater 
Kansas City Chamber of Commerce, and one of the top four most 
innovative companies in the Nation by the National School 
Boards Association. In a little under 10 years, Menlo has 
encountered a significant amount of success operating in the 
region.
    There are several factors that have contributed to this 
success. The area's central location provides access to most of 
the country within a four-hour flight, and the area's low cost 
of living creates an intersection of affordable talent and a 
high quality of life. The assistance of regional economic 
development programs and community support organizations have 
enabled Menlo to reinvest in growth and seek guidance in 
critical times throughout the company history.
    The company has recently leverage a Small Business 
Administration's 504 loan program to secure a new office 
location for the next phase of growth. All of these things have 
combined to create a distinct advantage of operating a tech-
centric small business in the Silicon Prairie. While there are 
many positive factors, we continue to combat a fundamental and 
limiting issue.
    Ultimately, we face a challenge of an adequately trained 
and available workforce to fill tech jobs. In an effort to 
address this, much work is being done with local foundations, 
community groups, school districts, higher ed, and businesses 
throughout our region. It is a challenge that will require 
cooperation and support at all levels to effectively solve. At 
Menlo, we are working to build the workforce by hiring student 
interns and commonly offer full-time employment after 
graduation.
    The company also works to identify tech minded individuals 
who have a desire to enter the workforce but may lack 
experience. Menlo hires these individuals with an associated 
30, 60, 90, and 180 day learning plan to actively train 
technical aspects of the associated role. While this provides 
long-term staffing impact, it is a challenge to implement in a 
resource constrained small business.
    While there are many activities focused on addressing the 
workforce shortage, I believe a crucial workforce issue remains 
overlooked. The issue is the lack of mastery, the long-term 
potential to inhibit innovation, reduce quality of products and 
services, and ultimately impact competitiveness of the country 
on a global scale. In our observation, the stress on the 
workforce and the ongoing trend of changing jobs more 
frequently creates a lack of individuals who are masters in 
their field. Quite simply, we do not have enough experts.
    All that said, the state of tech-centric small businesses 
in the Heartland is in full throttle and continues to increase 
in relevancy compared to on a national scale. Local, regional, 
and Federal programs continue to provide key elements of 
support to fuel this growth. As previously stated, adequately 
and trained available high-tech workforce continues to be an 
ongoing challenge with long-running consequences.
    Philosophically, we should think big, focus on relentless 
innovation, and develop expertise in the workforce. With proper 
support, small businesses can be the catalyst for achieving 
these aspirations. Thank you for your support of small 
businesses and thank you for your time today.
    Chairwoman DAVIDS. Thank you, Mr. Sandt. Mr. Silva, you are 
now recognized.

                   STATEMENT OF DANIEL SILVA

    Mr. SILVA. I am honored to be here today representing the 
KCK Chamber of Commerce. We are very pleased to see the 
Committee on Small Business exploring opportunities to attract 
tech, innovation, and a highly skilled workforce in the 
Heartland and we look forward to participating in an ongoing 
conversation to ensure that the Wyandotte County and KCK 
community benefits.
    I am here to provide testimony in support of smart 
regulation and legislation, programs, and access to 
opportunities that will position entrepreneurs, start-ups, and 
local small businesses for growth and sustainability. We are in 
favor of continued support of a high-quality education pipeline 
that creates a career ready workforce for the benefit of all 
Kansans. The KCK Chamber supports the collection of sales and 
use tax on e-commerce sales, in which sales tax are collected 
in such a way that does not place an unreasonable or onerous 
compliance burden on business, specifically small business that 
have less ability to administer compliance.
    The KCK Chamber is proud to be at the forefront of the 
community's success by enhancing and leveraging talents and 
resources of its diverse members to sustain and catapult 
development opportunities throughout the metropolitan area. The 
Chamber is excited to serve as the convener and connector for 
over 500 local and regional businesses to collaborate on 
efforts that improve the economic vitality and quality of life 
for our diverse region. This in turn creates opportunities in 
KCK and Wyandotte County which build a quality community to 
live, work, and conduct business.
    We want to note that 60 percent of our KCK Chamber's 
membership is comprised of businesses with 25 employees or 
less. So very much as small business chamber. As a non-partisan 
organization, the Chamber actively represents and advocates on 
behalf of its membership at the local, State, and national 
level.
    The KCK Chamber supports a transparent legislative process 
that follows the traditional Committee formant to ensure a fair 
hearing of all legislative issues facing the State of Kansas 
for the benefit of the citizens of the State. Thank you for 
your time.
    Chairwoman DAVIDS. Thank you, Mr. Silva. Well, I appreciate 
the testimony that you have all provided here today, and we 
will start with our questions for the second panel. And I will 
do the first question. So the first thing I would like to do is 
Ms. Parasker, demand has increased for the jobs that we have 
been discussing today.
    In your testimony touched on that, whether it is 
certifications requirements on educational attainment, two-
year, four-year, and that sort of thing. What do you see as, 
when you look at the increased number of people that are kind 
of coming through your training program, what do you see as 
the, I guess, space for growth there?
    And then also, could you talk maybe a little bit more in 
detail about how companies like you have already done it, start 
to be more innovative with removing some of the requirements 
that I think we are traditionally used to seeing?
    Ms. PARASKER. Sure. I think by bringing innovation in the 
process rather than only concentrating on products, it helps 
the ever changing and growing information technology industry. 
I am not against four year degree. This is about going beyond 
just the skills or the resources of the students that are 
coming out of these four year degree colleges.
    There is a point that we wanted to make more prominently 
is, for four years, that is a fixed learning curriculum through 
a college. Once the student comes out of that four-year degree 
college, they have the very good understanding on of the basics 
of programming language, but any other skills that they have 
been taught in the college is rapidly getting replaced with 
newer technologies and new ways of doing the same, you know, 
technology.
    So what we have found is innovation in bringing that 
education, whether it be in trainings, whether it be in 
internships or apprenticeships, giving it more thought and a 
process based approach rather than treating the students more 
of, you know, in a very slow based learning that is 
traditionally being done through a four-year college.
    Really make innovation happen within the technology 
industry. If we don't form a formulated process based approach, 
everybody will try to do their own thing and that is not going 
to be beneficial for the end result of how the industry will be 
morphed into.
    So if we want to innovate more in the space, it is about 
how do we bring in more of the higher tech technology processes 
that can be implemented, just like how IT moved from being a 
waterfall methodology to Agile and scrum methodology. The same 
kind of methodologies can be used in creating education process 
for students with lack of financial support to go through a 
four-year degree college.
    Chairwoman DAVIDS. Thank you, and I would like to follow 
that up with Mr. Sandt, you spoke in your verbal testimony 
about the need to philosophically think in a different way 
about how we approach our training and workforce development 
and this concept of getting to mastery and having more people 
who are experts.
    After hearing about a process based approach and what that 
might look like, can you talk a little bit about what you are 
seeing in the K through 12 space in terms of what do those new 
models of learning look like for the students that are really 
going to be taking positions, jobs and are going to be in 
really areas that I think that some of us can't even 
conceptualize at this point? If you could talk about that, and 
then maybe also some of the outcomes that you are seeing from 
these newer models.
    Mr. SANDT. Thank you for that question. The great news is 
that our K-12 schools are very active on a day-to-day basis 
with this topic. And in particular when you look at high school 
environments, there is a heavy emphasis and focus on 
experiential learning to where the students are able to try 
different roles, different fields out while they are still in 
high school to determine if it is a path of study that they 
would like to achieve.
    These students are either able to confirm that is something 
that they would like to do or change. But the great part about 
that is that program not only exposes students to businesses 
career opportunities, but also works to place teachers in 
programs that are exposing them to opportunities in the 
workforce.
    Many students do not go the four-year path in today's world 
and there are many, many opportunities. But it continues to be 
a challenge though with the perspective of parents who may feel 
like the four-year degree is the only way to go, and so 
continuing to expose our communities to that information is 
critical. Also, schools, K-12 schools, are working to start 
this at a much earlier age. You see STEM programs moving all 
the way down into elementary schools now in terms of learning 
and developing those skill sets for the future.
    In terms of outcomes, we are seeing substantial amount of 
growth in this, particularly where we have sponsored students 
at the high school level and have ultimately hired them for 
paid internships over the summer, and those who do not go on to 
four-year degrees moving to a full-time role at which point we 
have been able to also put them into internal development 
programs within the company.
    So the landscape is absolutely changing. In terms of 
mastery, there still is a challenge because much of the 
workforce development is focused on getting people to the entry 
point that is needed for the roles. And so we need to continue 
as a whole community to foster lifelong learning, continue 
those programs and companies to develop individuals because 
expertise matters.
    And then once we have experts, the more that they can 
share, the more value is gained.
    Chairwoman DAVIDS. Mr. Alonso, well actually hold on. I was 
thinking of something while you were answering the question, 
which is I have had the opportunity to go to a number of 
schools and speak with a number of educators in the third 
district, and I was just at Bonner Springs High School and they 
were showing me some of the technologies and coursework that 
they have. I mean they have an AutoCAD class. They have got 3D 
printers. They are working on robotics.
    And I know that this is happening not just in Wyandotte 
County, but it is also happening in Johnson County with, I 
think, the Shawnee Mission School District has an Aeronautics 
or Aerospace program. And so I think that it is very 
encouraging to see that in the third district hopefully we 
are--I would love to toot the horn of the third district 
because I think that some of our high schools and school 
districts are already getting out in front of that now.
    So now, Mr. Alonso, first I want to say I love CDFIs, but I 
would love to ask you about, you have the chance to see many 
different founders startup businesses, folks who are interested 
in expanding and growing their businesses, and I am curious if 
you have seen instances where founders or enterprises are 
unable to expand because they are unable to find the workforce 
that they need to do so?
    And then as kind of a follow-up, what are the ways that you 
see an organization like AltCap or, you know, someone who is 
part of the lending piece of the entrepreneurial ecosystem as 
being able to foster or help figure out ways to address the 
workforce shortages?
    Mr. ALONSO. Thank you for the question and thank you for 
being such a champion for CDFIs. You know, I was just at an 
event last week that was organized by the KC Startup Foundation 
called ``Back to KC'' where they brought founders back to 
Kansas City that had moved away from Kansas City with their 
business. And I think you know one of the issues that they had 
when they started their company in Kansas City and moved away 
was the lack of capital but also high skilled workforce where 
they felt they could grow their business.
    And I heard that from a number of founders. So I think that 
is definitely an issue that, you know, we are maybe not 
necessarily directly involved in around the workforce 
development, but certainly, you know, it is something that we 
can support by providing the capital to businesses so they 
could stay here if we can remove that hurdle or that challenge 
that they have.
    And like Ms. Parasker said, it is a process, innovation is 
a process, but also business development is a process, 
financing businesses is a process, and kind of getting you 
know, a community or getting institutions to support businesses 
throughout their life cycle and being willing to take risk and 
invest in businesses. We do that on a daily basis.
    Chairwoman DAVIDS. Thank you. So I want to get to Ms. 
Wahaus here. Well, first of all, as a dog lover, I appreciate 
the work that you are--I threatened to bring a picture of my 
dog that I had for a long time, Girl Dog, and enter her into 
the Congressional record, but I decided against it. But I do 
appreciate the work you are doing fighting canine cancer and 
recognizing the importance that companion animals play in our 
lives.
    And as a company that is involved in some pretty cutting-
edge research and technology in this area, can you talk a 
little bit about, you mentioned a little in your in your 
testimony, but do you have any maybe specific examples that 
would be helpful for us for what it looks like trying to find 
people with the biomedical or other skills that you need?
    And then, I suppose if you could talk a little bit about, 
do you know of any apprenticeships or other type of programs 
that we might be made aware of that would be good for us to be 
supporting? Thank you.
    Ms. WAHAUS. Sure. Thank you for the question. In terms of 
finding the workforce, there are a number of places that we 
look to. The KU Edwards Campus runs a biotechnology degree 
program and they actually have a requirement for each of the 
students in their final semester, they must participate in an 
internship.
    So we have taken advantage of that program and obviously 
our goal is to bring someone in as an intern, turn them into a 
full-time hire. From other sources, there are a number of 
agencies in the region that specialize in biotechnology skilled 
workforce. It is a work force that does tend to move companies 
fairly often, so I do experience some of that same issue in 
terms of trying to train them in our ways of manufacturing and 
then retain them.
    What we have done internally, because there is a limit to 
what the universities can teach and the technical schools, so 
what we do is we look for individuals that have great skills in 
what we refer to as aseptic processing technique, which means 
that you manufacture without introducing any contaminants. And 
so we look for that skill, number one, that can be taught at 
the university level, it can be taught in the two year 
programs, the four-year programs, as well as a technical 
schools.
    We also then have developed an internal certification 
program when they come in. We have about a three-month program 
where we work them through the various aspects of the 
biological manufacturing process to develop the rest of the 
skills that are unique to our particular manufacturing. So I 
think the internal certification programs are critical in terms 
of training that staff and bringing their university knowledge 
or their technical knowledge into your specific manufacturing 
process.
    Chairwoman DAVIDS. Okay, thank you. So, Mr. Silva, I would 
love to get your input after hearing from our Kansas Secretary 
of Labor and the Secretary of Commerce, can you talk a little 
bit about how the Kansas City Kansas Chamber of Commerce works 
either with those specific Departments or other folks at the 
State level? And then if you could maybe a little bit about the 
work that you might do with folks at the Federal level to 
expand workforce development or other opportunities in the 
Kansas City Kansas area.
    Mr. SILVA. Thank you for the question. Definitely 
appreciate hearing from Secretary Toland and Secretary Garcia. 
I think the level of engagement that we have had with this 
Administration has been fantastic. We really appreciated the 
focus that these folks and yourself, Representative Davids, 
have put not just on the third district and Wyandotte County, 
but the urban core as well. You know, we are continuing the 
conversation.
    It is of note that you know, Secretary of Commerce has 
expressed interest in visiting more of our urban small 
businesses and hearing more from those folks. We have been able 
to have a round table with you and then that has been very 
beneficial to us and hopefully to you so that we can further 
communicate, you know, what our businesses are going through in 
Wyandotte County.
    So I think on the Federal level the engagement has been 
great. And again on the State level has been fantastic. Now, we 
have not come up with a set strategy on how to, you know, 
really address the urban core which I think for us is becoming 
even more important. As a chamber we are pretty spread out in 
Wyandotte County, but the Legends and Village West is doing 
well. 39th and Rainbow area obviously is doing well with the KU 
Med.
    But we are now beginning to see hopefully a resurgence of 
the urban core and I think it is going to take commitment and 
leadership and some risk taking, and definitely some support of 
those businesses that would either like to locate their 
businesses there or start to business there. And all that is 
going to take private-public collaboration and employee 
engagement to ensure that we are showing up that urban core 
piece specifically around women-owned businesses and minority-
owned businesses.
    I think there is still a gap there on the entrepreneur 
piece, definitely on the tech, and innovation piece of 
opportunities for these folks to enter that space and be 
successful in that space. You know, I hear from folks that it 
is hard for them to grow their business because they are not 
securing the big contracts or the big grant dollars, and 
oftentimes are not invited to participate in those contract as 
subs. So it is going to take all of that.
    We also have a very engaged Mayor and Commission at the 
local level. So I think everyone is kind of pointing at, you 
know, really lifting up this community, but we are going to 
have to take it in pieces in terms of the workforce piece. Our 
sister organization, Wyandotte Economic Development Council 
leads a Workforce Solutions Committee where they are bringing 
folks to the table like the community college, employers, 
because we hear it every day, right. They cannot hire enough 
folks, whether it is construction, you know, the trades, you 
name it.
    We do have an under trained community here in Wyandotte 
County and it is going to take us, you know, working more 
closely with employers, the school districts, the community 
colleges to really get to the solution on this.
    Chairwoman DAVIDS. Thank you, Mr. Silva. And I think that 
one of the things that we heard a little bit about earlier was 
from our regional SBA Administrator has to do with 8(a) 
contracting, and I think that is an area where our office can 
definitely try to get folks connected. And I look forward to 
having conversations with you about that specific program, and 
then additional conversations about just other types of Federal 
contracting that we that just explore and see ways that we can 
work together.
    So I am only going to do I think one more question. It is 
actually a great segue-way when Mr. Silva was mentioning access 
to opportunities. Ms. Parasker, you have been a leader in 
promoting STEM, particularly in underserved and under-resourced 
communities and I wonder if you could speak a little bit to 
that goal and advancements in either innovative ways of 
thinking on that and you know in the entrepreneurial ecosystem 
that I know you are a very active in, and whether or not you 
are seeing sufficient advancement?
    And if not, what do you suggest that either the people in 
this room or our office can be doing to help support that?
    Ms. PARASKER. Absolutely. It has been a true pleasure. I 
have lived in Overland Park, Kansas for 19 years now. First 15 
or so, maybe 14 years or so, was almost like a bubble. A 
corporate job, you know, family and everything. Like I 
mentioned in my testimonial, once I started volunteering into 
areas beyond our boundaries, I could realize and I could see 
the real-time impact of the students, of kids, who are actually 
truly not getting the knowledge in their schools, their 
communities, their institutes around.
    It has changed quite a bit since four years to now, I 
agree, with a lot of ecosystem partners and awareness is going 
on. But I also call it STEM noise that has converted a lot of 
awareness to only noise. And what is happening is we need to 
make sums so that we can hit the frequency right for these 
kids. There is awareness and there is no opportunity which 
creates frustration.
    So what we need to do is now cultivate more opportunities 
to take that awareness from the society that we have created 
quite a bit. Very good activities. I am not saying they should 
not be continuing, but also focus on opportunities that are 
actually creating, you know, real time interaction for those 
kids saying yes, I need, I have the awareness that there is 
health sciences. I have the awareness of education training. I 
have an awareness the technologies. It is really not vertical. 
It is a horizontal and on all verticals, but what do I do now? 
Where do I go to learn it?
    School does not teach me because computer science is not a 
mandatory subject in schools. There are robotics and all those 
activities that are more of spark events, is what they are 
called, that is even more creating more activities and 
awareness. But when they reach their house, they do not have 
Wi-Fi. They do not have computers. They do not have access even 
if somebody donates a physical computer, not talking about 
laptops, a physical computer, they don't have place to put it 
in their house.
    That is what I experienced. When I saw that, I said and I 
had girls who are 16 years old saying I was told that I have no 
opportunities and there is no, you know, next steps for us. And 
I want our community to think beyond just initiatives and get 
to work. We may fail at certain things where I think we have to 
start working and really putting actions in place.
    There are so many kids who need us. And in fact, this 
country needs those kids. Let's not go, you know, only those 
kids. We are not helping only those kids, we are helping 
ourselves. If we do not help each other, we as a country will 
not keep our innovative edge in the world in United States.
    Chairwoman DAVIDS. Thank you. Well, that is a powerful 
answer for us to finish panel on. I appreciate all of you and 
responding to the questions that we had, so thank you very 
much. So I will just close with this that while our region has 
always had a strong industrial and manufacturing base, we are 
definitely seeing a shift in our economy.
    We heard firsthand today from our witnesses that because of 
our region's talented workforce, quality, schools, and 
infrastructure that we are emerging as a magnet for investment 
and a growing startup community, but we also know that 
businesses are still having trouble finding adequate talent to 
continue to grow those businesses.
    This is where I think what we have seen today is where 
business and Government can come together to work on programs 
to educate, to train, and retrain, and create that workforce 
for the 21st century economy that we need, along with 
supporting affordable access to capital and entrepreneurial 
development programs and innovation. This is what is going to 
allow our small businesses to strengthen our communities.
    Finally, I want to just thank all of you for sharing your 
stories, for providing testimony and giving us some really 
great ideas about how we can help your small businesses, 
emerging businesses, and the rest of our entrepreneurial 
ecosystem to grow and thrive.
    At this point, I would just ask unanimous consent that 
members have 5 legislative days to submit statements and 
supporting materials for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]
                            
                            A P P E N D I X


 Silicon Prairie: Tech, Innovation and a High-Skilled Workforce 
                             in the Heartland


        Testimony by David Toland, Kansas Secretary of Commerce


    Good morning, Representative Davids and members of the 
Small Business Committee. Thank you very much for the 
invitation to testify before you today. I'm pleased to have the 
opportunity to talk with you this morning about the state of 
innovation and technology in Kansas, both where we've been and 
where we have the potential to go as a state.

    Let's talk first about the state's early foray into the 
tech sector. In the years following the publication of the 1986 
Redwood-Krider Report, the Kansas Legislature and the state 
moved boldly on a bipartisan basis to establish new, innovative 
tools for economic growth. Their extraordinary vision and 
action put Kansas on the map as a leader for advancing economic 
development efforts--including specifically in the areas of 
technology and innovation. Our state had tools that no other 
state had, which were truly the envy of economic development 
experts in other states.

    The Kansas Technology Enterprise Corporation (KTEC) was 
established in 1986 to stimulate the start-up and advancement 
of technology companies in Kansas. KTEC's investment portfolio 
leveraged public and private dollars to invest early stage 
capital, facilitate programs to train and develop entrepreneurs 
and focus on innovations that prepared the next generation of 
jobs in the knowledge industry.

    Drawing on those successes, the 2004 Kansas Economic Growth 
Act created the Kansas Bioscience Authority. At that time, the 
Legislature and the Governor--again, on a bipartisan basis--
recognized another key opportunity.

    Pulling from the strength of our agricultural heritage, the 
Kansas Bioscience Authority advanced solutions in agribusiness 
and helped Kansas establish and maintain the largest 
concentration of animal health companies in the world, now 
recognized as the heart of the Animal Health Corridor. By 
drawing from a world-class agricultural research institution in 
Kansas State University and world-class medical programs at the 
University of Kansas, researchers made breakthroughs in 
oncology, information technology, medical devices and other 
important areas of human and animal health.

    These investments played a huge role in securing a home for 
the National Bio and Agro-Defense Facility in Manhattan, as 
well as securing the NCI Cancer Designation for KU Medical 
Center.

    This work was truly ahead of its time, and the bold vision 
left behind a legacy of innovation and collaboration across our 
state's economic development efforts. Kansas continues to 
benefit today from the foresight and ambition of business and 
political leaders of the past thirty years.

    But, the economic environment has changed. Nationally, 
technology growth, commerce and innovation are moving at 
unprecedented rates, and the job growth and economic impact 
associated with tech show no signs of slowing down.

    There are reasons to be optimistic about the future of tech 
and innovation in Kansas. Just yesterday, the KC Tech Council 
released a comprehensive report on the current state of the 
region's tech industry. The median tech occupation wage in 
Kansas is higher than that of many other Midwest states. And, 
tech has permeated the Kansas City metro's employment base more 
than it has in peer cities, with 9.2 percent of Kansas-side of 
KC workers employed in tech

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
